HHS/OIG, Audit -"Review of the State of Massachusetts' Efforts To Account For and Monitor Sub-Recipients' Use of Bioterrorism Hospital Preparedness Program Funds,"(A-01-03-01505)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the State of Massachusetts' Efforts To Account For and Monitor Sub-Recipients' Use of Bioterrorism Hospital
Preparedness Program Funds," (A-01-03-01505)
October 6, 2003
Complete
Text of Report is available in PDF format (193 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the State: (1) properly recorded, summarized and reported bioterrorism
preparedness transactions in accordance with the terms and conditions of the cooperative agreements; and (2) established
controls and procedures to monitor sub-recipient expenditures of Health Resources and Services Administration Bioterrorism
Hospital Preparedness Program (the Program) funds.  We found that the State generally accounted for the Program funds
in accordance with the terms and conditions of the cooperative agreement and applicable departmental regulations and guidelines.  Further,
State officials have indicated that the Program funding has not been used to supplant any existing state, or local programs.  We
recommended that the State segregate expenditures by phase and priority planning area, and conduct random audits of sub-recipients.  The
State concurred with our findings and recommendations.